                                Office of the Inspector General
                       Corporation for National and Community Service




                                           Audit of
                              Corporation for National Service
                                Grant Number 439S059 to the
                            West Virginia Bureau of Senior Services
                                  Charleston, West Virginia


                               OIG Audit Report Number 0 1- 12
                                       April 6, 2001




                                    Financial Schedules and
                                 Independent Auditor's Reports

                                        For the Period
                                 July 1,1997 to June 30,2000




                         Delivery Order S-OPRAQ-99-D-0020-CNS-07
                              Leonard G. Birnbaum and Company
                                  Certified Public Accountants
                                     6285 Franconia Road
                                  Alexandria, Virginia 223 10



This report was issued to Corporation management on September 24, 2001. Under the laws and
regulations governing audit follow up, the Corporation must make final management decisions on
the report's findings and recommendations no later than March 25,2002, and complete its corrective
actions by September 24,2002. Consequently, the reported findings do not necessarily represent
the final resolution of the issues presented.
                                                                                            CORPORATION
                                   Office of Inspector General                              FOR NATIONAL
                         Corporation for National and Community Service
                                OIG Audit Report Number 0 1- 12


                 Audit of Corporation for National Service Grant Number 439S059
                                               to the
                             West Virginia Bureau of Senior Services


The Office of Inspector General engaged L. G. Birnbaum and Company, LLP to audit costs claimed
by the West Virginia Bureau of Senior Services under CNS grant number 4393059. The audit
covered the period July 1, 1997 through June 30,2000 and included procedures to determine if costs
claimed in financial reports prepared by the Bureau were allowable, internal controls were adequate
to safeguard Federal funds, and whether the Bureau had policies and procedures adequate to ensure
compliance with Federal laws, applicable regulations and award conditions.

As a result of the work performed, the auditors are questioning $63,418 of the $1,211,502 (5 percent)
costs claimed over the three year period. About $56 thousand of the questioned costs results from
the Bureau's withdrawal of funds fi-om the Corporation in excess of expenditures it claimed and
reported for the three fiscal years audited. The report discusses this condition in detail and provides
information on other compliance issues as well as other questioned costs.

CNS OIG reviewed the report and the work papers supporting its conclusions. We agree with the
findings and recommendations presented. The Corporation and the West Virginia Bureau of Senior
Services responses to this report are discussed within the report and included in their entirety as
Appendices A and B, respectively.




                                                                                         Inspector General
                                                                                         1201 New York Avenue, NW
                                                                                         Washington, I)C 20.525
                                          Office of the Inspector General
                                        Corporation for National Service
                                     Audit of Corporation for National Service
                                             Grant No. 439S059 to the
                                     West Virginia Bureau of Senior Services

                                                      Table of Contents


REPORT SUMMARY AND HIGHLIGHTS:

        Summary of Audit Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .



        Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .


INDEPENDENT AUDITOR'S REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . .


FINANCIAL SCHEDULES:

        Exhibit A - Schedule of Award Costs - Fiscal Years 1998, 1999 & 2000 . .
        Schedule A-1 - Schedule of Award Costs - Fiscal Year 1998 . . . . . . . . . . .
        Schedule A-2 - Schedule of Award Costs - Fiscal Year 1999 . . . . . . . . . . .

        Schedule A-3 - Schedule of Award Costs - Fiscal Year 2000 . . . . . . . . . . .

        Notes to Financial Schedules . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

        Exhibit B - Explanation of Questioned Costs . . . . . . . . . . . . . . . . . . . . . . .

INDEPENDENT AUDITOR'S REPORT ON COMPLIANCE AND ON INTERNAL
     CONTROL OVER FINANCIAL REPORTING . . . . . . . . . . . . . . . . . . . . .

                   Finding No. 1 - West Virginia Bureau of Senior Services drew down
                   funds from the Corporation in excess of program expenditures. . . .

                   Finding No. 2 - West Virginia Bureau of Senior Services paid excess
                   stipends that may not be included as part of the local support
                   contributions. Minimum matching requirements for program
                   operations were not met. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
                                   Office of the Inspector General
                                 Corporation for National Service
                              Audit of Corporation for National Service
                                      Grant No. 439S059 to the
                              West Virginia Bureau of Senior Services

                                       Table of Contents - continued



            Finding No. 3 - West Virginia Bureau of Senior Services could not
            document that the Semi-annual Progress Reports and the Foster
            Grandparent Program Project Profile and Volunteers Activity
            Surveys had been prepared and submitted . . . . . . . . . . . . . . . . . . .                           21

            Finding No. 4 - Participants file review disclosed numerous instances
            of noncompliance.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          21

            Finding No. 5 - West Virginia Bureau of Senior Services did not
            maintain signed Memoranda of Understanding with all Volunteer
            Stations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   23


RESPONSES

    Response of the Corporation's Office of Grants Management . . . . . . . . . . Appendix A

    Response of West Virginia Bureau of Senior Services . . . . . . . . . . . . . . . . Appendix B
REPORT SUMMARY AND HIGHLIGHTS
                            LEONARD       G.   BIRNBAUM            AND      COMPANY, LLP
                                           CERTIFIED PUBLIC ACCOUNTANTS
                                                  WASHINGTON OFFICE

                                                 6285 FRANCONIA ROAD

                                                ALEXANDRIA, VA 22310-2510



                                                      (703) 922-7622

                                                   FAX: (703) 922-8256
LESLIE A. LEIPER                                                                                    WASHINGTON, D.C.
LEONARD G. BIRNBAUM                                                                               SUMMIT, NEW JERSEY
DAVID SAKOFS                                                                                     LOS ALTOS, CALIFORNIA
CAROL A. SCHNEIDER                                                                               SAN DIEGO. CALIFORNIA
DORA M. CLARKE


MEMBERS OF THE
AMERICAN INSTITUTE
     OF CPA'S



        Inspector General
        Corporation for National Service


         This report is issued under an engagement to audit the costs claimed by West Virginia Bureau of
         Senior Services from July 1, 1997 through June 30, 2000. This report focuses on the audit of
         claimed costs, internal control and compliance with Federal laws, applicable regulations and award
         conditions.

         Our audit of West Virginia Bureau of Senior Services covered the funds awarded by the Corporation
         for National Service (Corporation) under Grant No. 439S059 for the period July 1, 1997 through
         June 30,2000, which had a similar award period. Our audit of the costs claimed by West Virginia
         Bureau of Senior Services for its Foster Grandparent program disclosed the following:

                                                                                       Percentage
                                               Period                    Amount         Of Total
                   Award Budget             07/97 - 06/00              $ 1,267,403
                   Claimed Costs            07/97 - 06/00              $ 1,211,502        96%
                   Questioned Costs         07/97 - 06/00              $    63,418         5%


                                         SUMMARY OF AUDIT RESULTS

         As a result of our audit of the aforementioned award, we are questioning costs totaling $63,418,
         which are summarized below and detailed in Exhibit A to the Independent Auditor's report.
         Questioned costs are costs for which there is documentation that the recorded costs were expended
         in violation of the law, regulations or specific conditions of the award, or those costs which require
         additional support by the grantee or which require interpretation of allowability by the Corporation.




                      MEMBER OF THE DIVISION FOR CPA FIRMS, PRIVATE COMPANIES PRACTICE SECTION
                                AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS
Inspector General
Corporation for National Service


The following summarizes the costs questioned on the above award by reason:

                       Explanation                                                 Amount

rn     Funds drawn-down, but not expended or returned
              to the Corporation

rn     The minimum matching requirements were not met                                  7,5 17

              Total Questioned Costs                                                m
For a complete discussion of these questioned costs, refer to the Independent Auditor's Report.

      COMPLIANCE AND INTERNAL CONTROL OVER FINANCIAL REPORTING

Our audit disclosed the following instances of noncompliance with Federal laws, applicable
regulations and award conditions:

.      West Virginia Bureau of Senior Services drew down funds from the Corporation in excess
       of expenditures over the three fiscal years audited. (Independent Auditor's Report on
       Compliance and on Internal Control Over Financial Reporting, Finding No. 1)

       Additional stipends paid by the State of West Virginia in excess of the amount established
       by the Corporation may not be included as part of the local support contribution. Minimum
       matching requirements for program operations, therefore, were not met by West Virginia
       Bureau of Senior Services for the 98/99 program year. (Independent Auditor's Report on
       Compliance and on Internal Control Over Financial Reporting, Finding No. 2)

       West Virginia Bureau of Senior Services could not document that the Semi-Annual Progress
       Reports and the Foster Grandparent Program Project Profile and Volunteers Activity
       Surveys had been prepared and submitted. (Independent Auditor's Report on Compliance
       and on Internal Control Over Financial Reporting, Finding No. 3)

       Review of volunteer records disclosed instances of noncompliance such as missing files and
       files that lacked current required information. (Independent Auditor's Report on
       Compliance and on Internal Control Over Financial Reporting, Finding No. 4)

.      West Virginia Bureau of Senior Services did not maintain signed Memoranda of
       Understanding with all Volunteer Stations. (Independent Auditor's Report on Compliance
       and on Internal Control Over Financial Reporting, Finding No. 5)
Inspector General
Corporation for National Service


                              PURPOSE AND SCOPE OF AUDIT

Our audit covered the costs claimed under Grant No. 439S059 during the period July 1, 1997
through June 30, 2000, which had an award period of July 1, 1997 through June 30, 2000. The
objectives of our audit were to determine whether:

       1.      Financial reports prepared by West Virginia Bureau of Senior Services presented
               fairly the financial condition of the award;

       2.      The internal controls were adequate to safeguard Federal funds;

       3.      West Virginia Bureau of Senior Services had adequate procedures and controls to
               ensure compliance with Federal laws, applicable regulations and award conditions;

       4.      The award costs reported to the Corporation were documented and allowable in
               accordance with the award terms and conditions; and

       5.      West Virginia Bureau of Senior Services had adequate procedures and controls to
               track and report progress toward achievement of the program objectives.

We performed the audit in accordance with generally accepted auditing standards, and Government
Auditing Standards (1994 Revision) issued by the Comptroller General of the United States. Those
standards required that we plan and perform the audit to obtain reasonable assurance about whether
the amounts claimed against the award, as presented in the schedule of award costs (Exhibit A), are
free of material misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in Exhibit A. An audit also includes assessing the accounting principles
used and significant estimates made by the auditee, as well as evaluating the overall financial
schedule presentation. We believe our audit provides a reasonable basis for our opinion.

We provided a draft of this report to the Corporation's Office of Grants Management and to West
Virginia Bureau of Senior Services. The Corporation's response is presented as Appendix A. West
Virginia Bureau of Senior Services' response is presented as Appendix B.
Inspector General
Corporation for National Service


                                         BACKGROUND

The Corporation awarded Grant Number 439S059 in the amount of $1,267,403 for the period July
1, 1997 through June 30, 2000, to West Virginia Bureau of Senior Services for its Foster
Grandparents program to assist children that have been identified as having special needs to enhance
their self-esteem and ability to learn and to improve social skills and testing.

                                       REPORT RELEASE

This report is intended for the information and use of the Corporation's Office of the Inspector
General, as well as the Corporation's management, the West VirginiaBureau of Senior Services, and
the United States Congress. However, this report is a matter of public record and its distribution is
not limited.
INDEPENDENT AUDITOR'S REPORT
                           LEONARD         G . BIRNBAUM             AND      COMPANY, LLP
                                            CERTIFIED PUBLIC ACCOUNTANTS
                                                   WASHINGTON OFFICE

                                                  6285 FRANCONIA ROAD
                                                 ALEXANDRIA. VA 22310-2510



                                                       (703) 922-7622

                                                    FAX: (703) 922-6256
LESLIE A. LEIPER                                                                                     WASHINGTON, D.C.
LEONARD G. BIRNBAUM                                                                                 SUMMIT, NEW JERSEY
DAVID SAKOFS                                                                                     LOS ALTOS. CALIFORNIA
CAROL A. SCHNEIDER                                                                               SAN DIEGO, CALIFORNIA
DORA M. CLARKE


MEMBERS OF THE
AMERICAN INSTITUTE
    OF CPA'S



        Inspector General
        Corporation for National Service

                                       INDEPENDENT AUDITOR'S REPORT

        We have audited the costs incurred by West Virginia Bureau of Senior Services for the below award.
        These costs, as presented in the Schedule of Award Costs (Exhibit A), are the responsibility of West
        Virginia Bureau of Senior Services' management. Our responsibility is to express an opinion on
        Exhibit A based on our audit.

                   Award Number                    Award Period                      Audit Period

                                                    July 1, 1997                      July 1, 1997
                                                         to                                to
                                                   June 30,2000                      June 30,2000

        We conducted our audit in accordance with generally accepted auditing standards, and Government
        Auditing Standards ( 1 994 Revision), issued by the Comptroller General of the United States. Those
        standards require that we plan and perform the audit to obtain reasonable assurance about whether
        the financial schedules are free of material misstatement. An audit includes examining, on a test
        basis, evidence supporting the amounts and disclosures in the financial schedules. An audit also
        includes assessing the accounting principles used and significant estimates made by management,
        as well as evaluating the overall financial schedule presentation. We believe our audit provides a
        reasonable basis for our opinion.

         The accompanying financial schedules were prepared for the purpose of complying with the
         requirements of the award agreement as described in Note 1, and are not intended to be a complete
         presentation of financial position in conformity with generally accepted accounting principles of the
         United States.




                      MEMBER   OF THE DIVISION FOR CPA FIRMS, PRIVATE COMPANIES PRACTICE SECTION
                                  AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS
Inspector General
Corporation for National Service


In our opinion, except for $63,418 in questioned costs, the Schedule of Award Costs referred to
above presents fairly, in all material respects, the costs claimed for the period July 1, 1997 to June
30, 2000, in conformity with the award agreements.

This report is intended for the information and use of the Corporation's Office of the Inspector
General, as well as the Corporation's management, the West Virginia Bureau of Senior Services,
and the United States Congress. However, this report is a matter of public record and its distribution
is not limited.


                                               Leonard G. Birnbaum and Company



Alexandria, Virginia
April 6,200 1
FINANCIAL SCHEDULES
                                                                                                      Exhibit A

                                     West Virginia Bureau of Senior Services
                               Corporation for National Service Award No. 439S059
                                             Schedule of Award Costs
                                        From July 1, 1997 to June 30,2000

                                                                                                   Exhibit B
                                           Approved                Claimed          Questioned      Note
                                           Budget              Costs               Costs           Reference
Member Support Costs:
  Stipends                                 $    874,773        $      774,609      $
  Travel                                         50,062                72,72 1
  Meals                                          12,093                 7,405
  Physicals                                       2,724
  Insurance                                2.164
Subtotal                                        941,816               854,735

Staff:
  Personnel Services
  Admin. Charge - Insurance
  SS Match
  Health Insurance
  Workers' Comp.
  Retirement
  Fringe Benefits
Subtotal

Operational:
 Office Expense
 Travel
 Vehicle Rental
  Fire and Other Insurance
  Contractual
  Computer Services
  Vehicle Maintenance
  Hospitality
  Miscellaneous
  Credit Card - Supplies
  Office Equipment Repair
  Grants, Awards, etc.
  Fed Sub. Disb.
Subtotal

MATCH SHORTFALL                                                                            7,517

EXCESS DRAWDOWNS                                                                    55.901
TOTAL FEDERAL FUNDS                        m                   L!A4z!z              D
                        The accompanying notes are an integral part of this financial schedule.
                                                                                               Schedule A- 1

                                    West Virginia Bureau of Senior Services
                              Corporation for National Service Award No. 4398059
                                            Schedule of Award Costs
                                       From July 1, 1997 to June 30, 1998




Member Support Costs:
  Stipends
  Travel
                                           Approved
                                         Budnet              - Claimed            Questioned
                                                                                 Costs
                                                                                               Exhibit B
                                                                                                Note
                                                                                               Reference



  Meals
  Physicals
  Insurance
Subtotal

Staff:
  Personnel Services
  Admin. Charge - Insurance
  SS Match
  Health Insurance
  Workers' Comp.
  Retirement
Subtotal

Operational:
  Office Expense
  Travel
  Vehicle Rental
  Fire and Other Insurance
  Contractual
  Computer Services
  Vehicle Maintenance
  Hospitality
  Miscellaneous
  Credit Card - Supplies
  Office Equipment Repair
  Grants, Awards, etc.
Subtotal

EXCESS DRAWDOWNS

TOTAL FEDERAL FUNDS


                      The accompanying notes are an integral part of this financial schedule
                                                                                                Schedule A-2
                                    West Virginia Bureau of Senior Services
                              Corporation for National Service Award No. 439S059
                                            Schedule of Award Costs
                                       From July 1, 1998 to June 30, 1999

                                                                                                Exhibit B
                                          Approved             Claimed            Questioned     Note
                                        Budget                                   Costs          Reference
Member Support Costs:
  Stipends
  Travel
  Meals
  Physicals
  Insurance
Subtotal

Staff:
  Personnel Services
  Admin. Charge - Insurance
  SS Match
  Health Insurance
  Workers' Comp.
  Retirement
  Fringe
Subtotal

Operational:
 Office Expense
 Travel
 Vehicle Rental
  Fire and Other Insurance
  Contractual
  Computer Services
  Vehicle Maintenance
  Hospitality
  Miscellaneous
  Supplies
  Rental Expense
  Awards
Subtotal

MATCH SHORTFALL

EXCESS DRAWDOWNS

TOTAL FEDERAL FUNDS




                      The accompanying notes are an integral part of this financial schedule.
                                                                                                Schedule A-3
                                    West Virginia Bureau of Senior Services
                              Corporation for National Service Award No. 4398059
                                            Schedule of Award Costs
                                       From July 1, 1999 to June 30,2000

                                                                                                Exhibit B
                                             Approved          Claimed            Questioned     Note
                                         Budget              Costs               Costs          Reference
Member Support Costs:
  Stipends                               $     290,669
  Travel                                        15,226
  Meals                                          5,968
  Physicals                                        908
  Insurance                              800
Subtotal                                       313,571

Staff:
  Personnel Services                            79,735
  Admin. Charge - Insurance
  SS Match
  Health Insurance
  Workers' Comp.
  Retirement
  Fringe                                         24.3.07
Subtotal                                        103,942

Operational:
 Office Expense
 Travel                                           4,080
 Vehicle Rental                                   1,012
  Fire and Other Insurance
  Contractual                                     1,080
  Computer Services
  Vehicle Maintenance
  Hospitality
  Miscellaneous
  Rental Expense
  Office Equipment Repair
  Grants, Awards, etc.                            4,160




                                         -
  Fed. Sub. Disb.
Subtotal                                         10,332


EXCESS DRAWDOWNS                         -


TOTAL FEDERAL FUNDS



                      The accompanying notes are an integral part of this financial schedule.
                        West Virginia Bureau of Senior Services
                   Corporation for National Service Award No. 430S059
                               Notes to Financial Schedules


1.   Summary of Significant Accounting Policies

     Accounting Basis

     The accompanying financial schedules, Exhibit A and Schedules A-1, A-2 and A-3, have
     been prepared from the books of account of the West Virginia Bureau of Senior Services.
     The basis of accounting utilized differs from generally accepted accounting principles. The
     following information summarizes these differences.

     A.     Equity

            Under the terms of the award, all funds not expended according to the award
            agreement and budget at the end of the award period are to be returned to the
            Corporation. Therefore, West Virginia Bureau of Senior Services does not maintain
            any equity in the award and any excess of cash received from the Corporation over
            final expenditures, excluding any interest retained in accordance with OMB Circular
            A-102 and the Cash Management Improvement Act, is due back to the Corporation,
            together with accumulated interest.

     B.     Equipment

            Equipment is charged to expense in the period during which it is purchased instead
            of being recognized as an asset and depreciated over its useful life.

            Title to equipment acquired under Federal grants rests in West Virginia Bureau of
            Senior Services while used in the program for which it is purchased or in other fbture
            authorized programs. However, the Corporation has a reversionary interest in the
            equipment. Its disposition, as well as the ownership of any proceeds therefrom, is
            subject to Federal regulations.

     C.      Supplies

             Minor materials and supplies are charged to expense when purchased.

2.   Income Taxes

     The West Virginia Bureau of Senior Services is an agency of the State of West Virginia
     government and, as such, is exempt from Federal and state income taxes.
                                                                                       Exhibit B


                       West Virginia Bureau of Senior Services
                  Corporation for National Service Award No. 430S059
                            Explanation of Questioned Costs
                           From July 1, 1997 to June 30,2000


1.   Excess Drawdowns

     The West Virginia Bureau of Senior Services drew down $55,901 from the Corporation in
     excess of expenditures claimed for the three fiscal years under audit. These funds, which
     have not been returned, are calculated as follows:

                                      FY 1998        FY 1999        FY 2000            Total

     Funds Drawn Down                 $ 41 1,807     $ 427,75 1     $ 427,845      $1,267,403

     Costs Claimed                        373.180        413,912        424.4 10       1,211,502


     Excess Drawdowns                 $    38.627    $    13,839    $     3,435    $     55,901


2.   Matching Costs

     The grantee reported matching costs of $69,584 in fiscal years 1999. Of this amount,
     $41,110 represents additional stipends paid by the State of West Virginia.

     Title 45, Chapter XXV, Section 2552.92(f) states that a Foster Grandparents "sponsor shall
     pay stipends at the same rate as that established by the Corporation." Therefore, stipend
     payments in excess of the amount established by the Corporation may not be included as part
     of the local support contribution. (continued on following page)
                                                                                    Exhibit B


                       West Virginia Bureau of Senior Services
                  Corporation for National Service Award No. 430S059
                            Explanation of Questioned Costs
                           From July 1, 1997 to June 30,2000


2.   Matching Costs - continued

     Accordingly, we have not considered these stipends in determining whether the grantee has
     met the 10 percent match required by the grant. The match shortfall was calculated as
     follows:



            Total Match Costs Claimed                                      $    69,584

            Less: Unallowable State Stipends                                    41,110


            Allowable Match Costs                                               28,474

            Additional match costs
            subsequently substantiated

            Total Allowable Match Costs

            Required match percentage

            Maximum program costs*


             Less: allowable match costs

             Maximum Federal share

             Claimed costs - net                                                413,912

             Match Shortfall                                                $    (7,517)

             "Allowable match costs divided by 10 percent.
           INDEPENDENT AUDITOR'S REPORT

                       ON

COMPLIANCEAND INTERNAL C O N T R O L R T I N G
                           LEONARD       G.     BIRNBAUM             AND     COMPANY, LLP
                                            CERTIFIED   PUBLIC ACCOUNTANTS
                                                   WASHINGTON OFFICE

                                                  6285 FRANCONIA ROAD

                                                 ALEXANDRIA. VA 22310-2510



                                                        (703) 922-7622

                                                     FAX: (703) 922-8256
LESLIE A. LEIPER                                                                                   WASHINGTON, D.C.
LEONARD G. BIRNBAUM                                                                               SUMMIT. NEW JERSEY
DAVID SAKOFS                                                                                      LOS ALTOS, CALIFORNIA
CAROL A. SCHNEIDER                                                                               SAN DIEGO. CALIFORNIA
DORA M. CLARKE


MEMBERS OF THE
AMERICAN INSTITUTE
     OF CPA'S




         Inspector General
         Corporation for National Service


                                  REPORT ON COMPLIANCE AND ON
                            INTERNAL CONTROL OVER FINANCIAL REPORTING


         We have audited the Schedule of Award Costs which summarizes the costs claimed of the West
         Virginia Bureau of Senior Services under the Corporation for National Service (Corporation) grant
         award listed below, and have issued our report thereon dated April 6,2001.

                   Award Number                         Award Period                        Audit Period

                                                          July 1, 1997                       July 1, 1997
                                                              to                                  to
                                                        June 30,2000                        June 30,2000

         We conducted our audit in accordance with auditing standards generally accepted in the United
         States of America and standards applicable to financial audits contained in Government Auditing
         Standards issued by the Comptroller General of the United States.

         Compliance
         As part of obtaining reasonable assurance about whether the West Virginia Bureau of Senior
         Services' financial schedules are free of material misstatement, we performed tests of compliance
         with certain provisions of laws, regulations, and terms and conditions of the grant award,
         noncompliance with which could have a direct and material effect on the determination of allowable
         amounts. However, providing an opinion on compliance with those provisions was not an objective
         of our audit, and accordingly, we do not express such an opinion. The results of our tests disclosed




                      MEMBER OF THE DIVISION FOR CPA FIRMS, PRIVATE COMPANIES PRACTICE SECTION
                                AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS
Inspector General
Corporation for National Service


several instances of noncompliance that are required to be reported under Government Auditing
Standards and which are described below.

Internal Control over Financial Reporting

In planning and performing our audit, we considered the West Virginia Bureau of Senior Services'
internal control over financial reporting in order to determine our auditing procedures for the purpose
of expressing our opinion on the financial schedules and not to provide assurance on the internal
control over financial reporting. Our consideration of the internal control over financial reporting
would not necessarily disclose all matters in the internal control over financial reporting that might
be material weaknesses. A material weakness is a condition in which the design or operation of one
or more of the internal control components does not reduce to a relatively low level the risk that
misstatements in amounts that would be material in relation to the financial statements being audited
may occur and not be detected within a timely period by employees in the normal course of
performing their assigned functions. We noted no matters involving the internal control over
financial reporting and its operation that we consider to be material weaknesses.


Finding No. 1

West Virginia Bureau of Senior Services drew down a total of $55,901 from the Corporation in
excess of expenditures claimed for the three fiscal years under audit as noted below:
                                            -




I         1998           I          1999                                     I         Total          I

Office of Management and Budget (OMB) Circular A-102 and the Cash Management Improvement
Act require agencies to minimize the time elapsing between transfer of Federal funds to recipients
of grants and cooperative agreements and the recipient's need for the funds. Implicit in this
requirement is the prompt return of Federal funds not expended by the recipient. Poor controls by
the Bureau of Senior Services over the management of Federal funds caused this failure to return the
excess cash drawn downs. As a result, the excess funds drawn down were unavailable for the benefit
of volunteers in the areas served by the Bureau or for those who may have been served elsewhere
had the money been returned as required.
Inspector General
Corporation for National Service


Recommendation

We recommend that West Virginia Bureau of Senior Services return the $55,901 in funds not
expended in the operation of its Foster Grandparents program, together with accumulated interest.

West Virginia Bureau of Senior Services' Comments

The West Virginia Bureau of Senior Services advises that it notified the Corporation's West Virginia
State Office staff that, under the State's accounting system, all payments must be invoice generated
and that any unobligated balances would be processed immediately upon written request.

Auditor's Response

Irrespective of the requirements of the accounting system of the State of West Virginia, the Bureau
of Senior Services, by accepting the grant, agreed to its terms and conditions which include OMB
Circular A-102. The Bureau of Senior Services does not deny that it held these excess funds. Since
the Bureau of Senior Services rather than the United States Treasury had the use of these funds it is
appropriate that the repayment include interest as required by the Cash Management Improvement
Act.

Finding- No. 2

West Virginia Bureau of Senior Services did not provide the minimum amount of matching funds
required for the 1999 program year. The Foster Grandparents program requires grantees to provide
matching funds at a minimum of 10 percent for program operating costs which include other
Member costs, staff, operating costs, internal evaluation and administration.

The amounts claimed as matching costs which, by themselves, did not meet the minimum
requirement, include excess stipendpayments. Title 45, Chapter XXV, Section 2552.92(f) states that
a Foster Grandparents "sponsor shall pay stipends at the same rate as that established by the
Corporation." Therefore, stipend payments in excess of the amount established by the Corporation
may not be included as part of the local support contribution.

Our tests of matching contributions disclosed that the Bureau paid additional stipends of $41,110
to its volunteers for 1999. Accordingly, we have not considered these stipends in determining
whether the grantee has met the grant's match requirements. Our recalculation of the allowable
Federal portion of the grant, as originally shown in Note 2 to Exhibit B to our Independent Auditor's
Report, resulted in total questioned costs of $157,646 and $227,845 for fiscal years 1999 and 2000.
The Bureau responded immediately to this finding by providing documentation supporting additional
match costs. We have fimished copies of this documentation to the Corporation. Our review of
Inspector General
Corporation for National Service


these documents concluded that, for the most part, they constituted acceptable match costs.
Consideration of these costs reduced the net questioned costs to $7,5 17.

Recommendation

We recommend that West Virginia Bureau of Senior Services return the $7,5 17 over-expenditure
of Federal funds that resulted from not having met the required match in the 1999 fiscal year,
together with accumulated interest.

West Virginia Bureau of Senior Services' Comments

The West Virginia Bureau of Senior Services states that it was told that the stipend had been
"grandfathered" and the program could operate under the same procedures as its predecessor, the
West Virginia Department of Health and Human Resources, which the Bureau of Senior Services
assumed included treating excess stipends as matching costs.

Corporation for National Service's Comments

The Corporation disagrees with our method of calculating questioned matching costs, stating that
the Corporation process calculates the required match based on the allowable federal costs claimed.
The Corporation's method calculates the match shortfall by assuming that the otherwise allowable
claimed federal costs are 90 percent of the total program costs, and that the difference between 10
percent of the total program costs and a lesser amount matched by the grantee should be the amount
questioned.

Auditor's Response

As noted in Appendix A, the response from the Corporation, the West Virginia Bureau of Senior
Services received permission from the Corporation to pay a higher stipend than the Federal stipend.
The memo granting that permission, however, specifically states that the increased stipend cannot
be used to meet required match.

As to the Corporation's method of calculating questioned costs, the Corporation is confusing match
shortfall and questioned costs resulting from match shortfall. Simply put, if a grantee does not meet
its match requirements which, in this case, is 10 percent of total program costs, then the otherwise
allowable total federal costs are in excess of 90 percent of total program costs and such excess, under
the matching terms of the grant, is unallowable and, hence, is the amount of questioned costs.
Inspector General
Corporation for National Service


Finding No. 3

West Virginia Bureau of Senior Services was unable to document that the Project Progress Reports
(PER) and the Foster Grandparents Program Project Profile and Volunteers Activity Surveys had
been prepared and submitted. The Foster Grandparents Program Operations Handbook, Chapter 11,
Section 50 - Reports, states that the grantee "has the responsibility to maintain project records in
accordance with generally accepted accounting practices and to provide for the preparation and
submission of required reports." Foster Grandparents program files were transferred by the Bureau
to another organization at the end of fiscal year 2000 when the Bureau ceased its operation of the
program. Program management was unable to determine the reason for the inability to locate the
reports requested for review, but suggested that the records may have been lost in the transfer or
accidentally discarded. As a result we were unable to determine whether the Bureau fulfilled its
responsibility to provide Project Progress Reports and the Program Project Profile and Volunteers
Activity Surveys.

Recommendation

As of June 30, 2000, the West Virginia Bureau of Senior Services no longer operates the Foster
Grandparents Program. We, therefore, make no recommendation with respect to this finding.

W      e     s     i     o      r Services' Comments

The Bureau of Senior Services states that when the Corporation directed the transfer to the new
sponsor, all materials were boxed and transferred and the Bureau assumes they were either
misplaced or inadvertently discarded.

Auditor's Response

No response is offered since we did not make any recommendation on this finding.

Finding No. 4

We reviewed participant files at the offices of the United Way of Kanawha Valley, Inc. This review
disclosed numerous instances of missing or outdated information. The Foster Grandparents
Program Operations Handbook, Chapter 11, Section 5 1 - Recordkeeping, states that the "sponsor
must develop a recordkeeping system which will permit the orderly collection, storage, and retrieval
of information relating to volunteer stations, the project's volunteers, and fiscal aspects of project
operation." The Handbook requires the grantee to maintain a file on each Foster Grandparent
containing a signed enrollment form, designation of beneficiary, the name of the volunteer station
and other information.
Inspector General
Corporation for National Service


Approximately 130 participants were enrolled in the Foster Grandparent program during the three
years of the grant. We tested the files of 30 Foster Grandparents, 10 from each fiscal year, for nine
attributes per file. We noted 2 missing files, 60 attributes that had not been updated for the current
year, driver information missing from one file and one enrollment application that had not been
signed. The following schedule lists the numbers of files containing exceptions by fiscal year that
were disclosed as a result of this review:

                                                                             I
                                                   Fiscal Year Fiscal Year Fiscal Year      I
                      Exception                       1998
          Files not located.                           1
          Documentation not current.                   7
          Driver documentation not in file.
          Application not signed.              I       -

The lack of certain required information from the Foster Grandparent files appears to have been
caused by a failure to review the files systematically so as to ensure that all required data was
updated annually. As a result, we determined that most of the volunteer files tested were incomplete
with respect to the information required by the regulations to be maintained by the program office.

Recommendation

As of June 30, 2000, the West Virginia Bureau of Senior Services no longer operates the Foster
Grandparents Program. We, therefore, make no recommendation with respect to this finding.

West Virginia Bureau of Senior Services' Comments

The West Virginia Bureau of Senior Services states that it is possible that some items were
misplaced during the transfer of files to the new sponsor.

Auditor's Response

No response is offered since we did not make a recommendation on this finding.
Inspector General
Corporation for National Service




We reviewed the file of Memoranda of Understanding (MOU) with volunteer stations at the offices
of the transferee entity. This review disclosed missing or unsigned documents in several instances.
Of the 20 volunteer stations identified, we noted that 6 MOU's, or 30 percent, were either missing
or unsigned. The Foster Grandparents Program Operations Handbook, Chapter 11, Section 5 1 -
Recordkeeping, states that "the project should maintain a file on each volunteer station containing
a current, signed Memorandum of Understanding."

The files containing the MOU's were transferred by the Bureau, along with volunteer and other
program files, to the successor organization at the end of fiscal year 2000. As was noted in Finding
3, program management was unable to determine the reason for the missing documentation. It was
not possible, therefore, to accurately determine through program records that the Memoranda of
Understanding had been completed or updated with all of the volunteer stations in accordance with
the regulations.

Recommendation

As of June 30, 2000, the West Virginia Bureau of Senior Services no longer operates the Foster
Grandparents Program. We, therefore, make no recommendation with respect to this finding.

West Virginia Bureau of Senior Services' Comments

The West Virginia Bureau of Senior Services again states that the transfer of a large number of files
to the new sponsor could have resulted in lost records.

Auditor's Resganse

No response is offered since we did not make a recommendation on this finding.


This report is intended for the information and use of the Corporation's Office of the Inspector
General, as well as Corporation's management, the West Virginia Bureau of Senior Services, and
the United States Congress. However, this report is a matter of public record and its distribution is
not limited.
                                            +hhbc,d
                                              Leonard G. Birnbaum and Company
Alexandria, Virginia
April 6, 2001
Response of the Corporation's Office of Grants Management
                                                               CORPORATION
                                                               F O R NATIONAL




      To:                     Luise Jordan, Inspector General

      Thru:                   William Anderson, Deputy Chief "n              ~&k:?(-
      From:                   Peg Rosenberry, Audit Resolution C
                                                                                /'                           1
      Cc:                                                                    '4
                              Tess Scannell, Acting Director, Senior ervice Corps
                              Harold Williams, Director, Southern Service Center

      Date:                   September 6,2001

       Subject:               Request for Comments on Draft Report 01-12; Audit of the Corporation's
                              Grant to the West Virginia Bureau of Senior Services Grant


       We have reviewed the draft report on the audit of the grant to the bJest Virginia Bureau
       of Senior Services. Our review was limited to information contained in the report. We
       have not yet conducted a comprehensive review of the issues presented nor obtained
       comments from the grantee. We will do so during the audit resolution process and will
       address all of the findings and recommendations in the final management decision.
       Therefore, we are not providing detailed comments at this time. However, we do have
       the following preliminary comments on some of the findings and questioned costs.

       In some cases, specific senior corps programs are permitted to pay a higher stipend than
       the federal stipend. The West Virginia Bureau of Senior Services received permission to
       do so from the Corporation in 1999. The memo granting permission specifically states
       that the costs of the increased stipend may not be used as part of the required grantee
       share. The Corporation agrees that those costs should not have been used to meet the
       required match.

       As a result, we agree that the West Virginia Bureau of Senior Services did not meet the
       minimum requirement for match. However, in determining questioned costs the auditors
       did not follow the method prescribed by the Corporation. The Corporation process
       calculates the required grantee match based on the allowable federal costs claimed. Since
       the allowable federal costs claimed for the two years in which the bureau did not meet the
       required match were $833,322, the required grantee match is $92,591. Therefore, the
       shortfall in match needed from the West Virginia Bureau of Senior Services is $42,078.
       This amount could increase or decrease once we have had time to conduct a
       comprehensive review of pertinent information.




NATIONAL SERVICE: GETTING THINGS DONE                                        1201 New York Avenue, N.W. Washington, D.C. 20525
~ m e r i ~ o q s ~ e a and
                        n ,%v-oeAmerica   .Vatioml Senior Sewice C   O ~ S   telephone: 202-606-5000 website: \r?r*.nationalservice.org
Response of West Virginia Bureau of Senior Services
                                        STATE OF WEST VIRGINIA
                                      BUREAU OF SENIOR SERVICES
Bob Wise                                 1900 Kanawha Boulevard, East                         Ann M. Stottlemyer
Governor                                    Holly Grove - Building10                            Commissioner
                                      Charleston, West Virginia 25305-0160
                                           Telephone (304) 558-3317
                                              F A X (304) 558-0004
                                                August 3 1,2001



       Ms. Luise S. Jordan, Inspector General
       Corporation For National Service
       Office of Inspector General
       1201 New York Avenue, NW
       Washington, DC 20525

       Dear Ms. Jordan:

               Thank you for the opportunity to respond to the draft report of our Foster Grandparent
       audit of Grant 4398059. We will address each section of the report individually.

       I. QUESTIONED COSTS

              A. Excess Drawdowns

               The Corporation for National Service Foster Grandparent program operated on a
       Quarterly Advance Request For Funds. We followed Corporation directives to draw 114 of the
       grant award each quarter in advance. Expenditures for each grant were reported on a quarterly
       basis, with a final financial report submitted at the end of each grant period. The final reports
       verified any unobligated funds for that grant period. These reports were filed within established
       time frames as issued by the Corporation for National Service, and were reviewed by
       Corporation Regional Financial Staff, Mr. Douglas Gerry, (on-site for two years).

              State Corporation staff were notified that under the State's accounting system, all
       payments must be invoice generated. Any unobligated balances would be processed
       immediately upon written request. We have never received a request for return of those funds.
       Once again, upon receipt of a request for return of unobligated balances, a payment will be
       processed through the central State accounting system to generate a check. The balance of
       $55,901.19 is reserved in our Federal clearing account for that purpose. This documentation of
       the remaining balance was also provided to the audit firm.



                                                                                      SEP      5 ?OO;
                                                                                         OFFICE OF THE
                                                                                      INSPECTOR GENERAL
Page 2

         B. Matching. Costs

        When the Bureau of Senior Services (formerly the Commission on Aging) was
approached by State Corporation staff and asked to serve as grantee for the Foster Grandparent
Program due to the WV Department of Health and Human Resources withdrawing as sponsor,
we did so to maintain uninterrupted services. At that time, we assumed the program as is, with
current grant level, current match sources, and current staff. Part of that current match was the
State stipends paid by the WV Legislature to the Grandparents. Had we known that was no
longer considered to be a legitimate match, we would have been hesitant to assume sponsorship.
We were told that the stipend had been "grandfathered" and the program could operate under the
same format as before. That was the previous sponsor's main source of match also, and never
questioned by the Corporation, and was reviewed on-site at our location by Mr. Gerry and State
Corporation staff and again never questioned.

       To our surprise the audit firm notified us it was unallowable, so pending any dispute of
such, we submitted other documented match for the grant periods indicated, which hopefully will
eliminate most, if not all, of those questioned costs.

        We still feel the State stipends should be considered an appropriate matching resource
given the nature of the shift to our agency in a very narrow time frame and the implied approval
of the grant and its related sources at that time. We operated the program no differently than the
previous sponsor, and they had no questioned costs in this area. The State stipends totaled
$83,049 in the periods questioned.

11. FINDINGS

        1) We take exception to this finding. The Bureau of Senior Services reported the
program financial status as required by the Corporation within established time frames. At no
time were they unaware of the exact amount of any unobligated funds. We indicated
reimbursement of those monies would require an invoice or request for such. Those funds are
remaining in the account specifically for that program pending written documentation that allows
us to process a release of the funds through the central state accounting system. We cannot
generate our own checks; we must follow established state law.

        We operate over 30 federal grants from Department Health and Human Services and
Department of Labor. Our cash controls have never been in question with those programs, and
grants are closed in a timely basis or the unobligated balance is considered carryover and
included as part of the next year's award. The Corporation had done this until the end of the
1998 grant. We do not consider this poor controls on our part, but a failure of the federal grantor
agency to follow-up on provided reports and include such as carryover, (which they had done the
previous six years), or provide the requested written request to allow us to draw a check to return
the funds.
Page 3

        2) (Please refer to our discussion of the match issue under QUESTIONED COSTS.)
        We were "grandfathered" in by the Corporation at the stipend rate being paid when we
assumed sponsorship. That should be considered the allowable rate and any non-federal portion
paid as part of that rate should be allowable match, as implied when the grant was transferred.

       3) As was discussed with the audit staff by Bureau program staff, the reports were
prepared and submitted as required by Corporation policy. When the Corporation directed that
we transfer all program files to the new sponsor, all materials were boxed and transferred.

       We had no control of the whereabouts of those files after that point and must assume they
were either misplaced or inadvertently discarded. Program staff on the Grandparent program had
been with the program over seven years and had provided this material to State and Regional
Corporation staff on their reviews on-site, so it did exist.

       4) Every effort was made by program staff to maintain the appropriate information for
each Grandparent file. As is #3, these files were reviewed after transfer to the new grantee,
which occurred in a very quick turnaround. It is possible some items were misplaced at this
time. It is also apparent minimal documentation errors may have occurred.

        5) Please refer to finding #3 response, the large volume of files (numerous fiscal years for
130+ Grandparents and 20 locations) required to be transferred in a hurried fashion could have
resulted in lost records.

        Once again, thank you for the opportunity to respond to the draft report. Upon receipt of
a written request for refund of unobligated monies of $55,901.19, we will immediately process a
check through the State of West Virginia accounting system.

       If you have any further questions or if we can provide additional information, please
don't hesitate to contact us.

                                              Sincerely,



                                              Ann M. Stottlemyer
                                                                          u
                                              Commissioner

 KYBIvgs
cc:      Leonard G. Birnbaum and Company
